 December 31, 2002




Financial Management

Naval Supply Systems Command
Revaluation of Inventory to Latest
Acquisition Cost
(D-2003-039)




       Office of the Inspector General
                    of the
           Department of Defense

                                   Constitution of
                                  the United States

   A Regular Statement and Account of the Receipts and Expenditures of all public
   Money shall be published from time to time.
                                                              Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CRR                   Cost Recovery Rate
CSIS                  Central Secondary Item Stratification
DFAS-CL               Defense Finance and Accounting Service Cleveland Center
LAC                   Latest Acquisition Cost
NAVICP                Naval Inventory Control Point
NAVICP-M              Naval Inventory Control Point - Mechanicsburg, Pennsylvania
NAVICP-P              Naval Inventory Control Point - Philadelphia, Pennsylvania
NAVSUP                Naval Supply Systems Command
SSIR                  Supply System Inventory Report
WCF                   Working Capital Fund
          Office of the Inspector General of the Department of Defense
Report No. D-2003-039                                                December 31, 2002
   (Project No. D2001FJ-0195.001)

       Naval Supply Systems Command Revaluation of Inventory to
                         Latest Acquisition Cost

                                    Executive Summary

Who Should Read This Report and Why? DoD civilian and military financial
management personnel who use or are involved in the preparation of the financial reports
required by the Chief Financial Officers Act. The report discusses the valuation of
inventories on the Department of the Navy Working Capital Fund financial statements.

Background. Inventory represents a major portion of the total assets reported on the
Navy Working Capital Fund Financial Statements. The Naval Supply Systems
Command manages Navy Working Capital Fund inventory for the Navy Supply
Management Activity Group. The Naval Supply Systems Command revalues its supply
inventory throughout the year from the standard price it charges customers to the latest
acquisition cost of the items in order to comply with financial reporting requirements.
The Naval Supply Systems Command reported wholesale serviceable condition inventory
of approximately $9.9 billion (at latest acquisition cost) for the period ending March 31,
2001.

Results. The Naval Supply Systems Command materially misstated inventory when it
revalued it from standard price to latest acquisition cost. The revaluation methodology
was incorrect because the Naval Supply Systems Command removed a cost recovery rate
from standard-priced inventory that differed materially from the cost recovery rate that
was added by the Naval Inventory Control Point during initial item pricing. We estimate
that wholesale serviceable condition inventory was misstated by approximately
$497 million for the period ending March 31, 2001. Additionally, the Naval Supply
Systems Command provided data showing that wholesale inventories were misstated by
approximately $668 million for the period ending September 30, 2001. The Naval
Supply Systems Command was using the same revaluation process for FY 2002 financial
reporting. Until the revaluation methodology is corrected, the inventory values computed
by the Naval Supply Systems Command cannot be relied upon for Navy Working Capital
Fund end-of-period reporting. The Naval Supply Systems Command needs to value
inventories at their latest acquisition cost for end-of-period reporting purposes.

Management Comments. The Director of Financial Operations, Office of the Assistant
Secretary of the Navy (Financial Management and Comptroller) concurred with the
finding and recommendations; therefore, no additional comments are required. See the
Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.
Table of Contents

Executive Summary                                          i


Background                                                1


Objective                                                 1


Finding
     Inventory Revaluation                                2

Appendixes
     A. Scope and Methodology                              9
          Management Control Program Review               11
          Prior Coverage                                  12
     B. Details on Navy Inventory Pricing and Valuation   13
     C. Report Distribution                               16

Management Comments
     Department of the Navy                               19
Background
    The audit was performed to meet the requirements of Public Law 101-576, the
    “Chief Financial Officers Act of 1990,” November 15, 1990, as amended by
    Public Law 103-356, the “Federal Financial Management Act of 1994,”
    October 13, 1994. This report is the first in a series on the valuation of
    Department of the Navy (Navy) Working Capital Fund (WCF) inventory. The
    Naval Supply Systems Command (NAVSUP) manages Navy WCF inventory for
    the Navy Supply Management Activity Group. NAVSUP reported wholesale
    serviceable condition inventory of approximately $9.9 billion (at latest acquisition
    cost [LAC]) for the period ending March 31, 2001.

    The Navy WCF uses “standard price” to record inventory items in its logistical
    and accounting records for day-to-day operations. The “standard price” for an
    item includes the cost incurred to acquire the material and a cost recovery rate
    (CRR), or surcharge, to recoup operating and inventory costs in managing the
    Supply Management Activity Group. For financial reporting purposes, the Navy
    WCF has adopted the LAC inventory valuation method (see Appendix B for
    details). The LAC method provides that the last invoice price be applied to all
    like units including those units acquired through donation or non-monetary
    exchange. LAC must be adjusted to approximate historic cost by recognizing
    unrealized holding gains and losses in the ending inventory value.

    NAVSUP, located in Mechanicsburg, Pennsylvania, manages Navy WCF
    inventories through the Naval Inventory Control Point (NAVICP). NAVICP
    annually computes standard prices for Navy consumable and repairable shipboard
    and aviation-related inventory items at its sites in Mechanicsburg (NAVICP-M)
    and Philadelphia (NAVICP-P), Pennsylvania. Each month, NAVSUP uses a
    spreadsheet model to revalue Navy WCF inventory from standard price to LAC
    and records journal entries in the Defense Finance and Accounting Service
    Cleveland Center’s (DFAS-CL) Central Database system. DFAS-CL
    consolidates the inventory data in the Central Database system and prepares both
    monthly reports and annual financial statements. As part of this process,
    DFAS-CL uses a DoD Cost of Goods Sold model to adjust the inventory value at
    LAC to approximate historic cost. At fiscal year-end, the NAVSUP-revalued
    inventories are also used to prepare the DoD Supply System Inventory Report
    (SSIR).



Objective
    The objective of the audit was to evaluate whether cost data used to value DoD
    inventory are accurate and reliable. This part of the audit focused on the
    NAVSUP process to revalue inventory from standard price to LAC. We also
    evaluated applicable management controls. See Appendix A for a discussion of
    the scope and methodology, the management control program, and prior audit
    coverage.



                                         1
            Inventory Revaluation
            NAVSUP materially misstated inventory when revaluing it from standard
            price to LAC. The revaluation methodology was incorrect because
            NAVSUP removed a CRR from standard-priced inventory that differed
            materially from the CRR that NAVICP added during initial item pricing.
            We estimate that wholesale serviceable condition inventory was misstated
            by approximately $497 million for the period ending March 31, 2001.
            Additionally, NAVSUP provided data showing that wholesale inventories
            were misstated by approximately $668 million for the period ending
            September 30, 2001. NAVSUP has used the same revaluation process for
            FY 2002 financial reporting. Until the revaluation methodology is
            corrected, the inventory values computed by NAVSUP cannot be relied
            upon for Navy WCF end-of-period reporting.



Inventory Valuation Policy
     Inventory Valuation Assertion. Underlying the financial statements are
     management assertions on the valuation, ownership, existence, completeness, and
     presentation of inventories. Assertions regarding inventory valuation are based
     on whether inventories have been included in the financial statements at the
     appropriate dollar amounts and whether the basis of valuation is appropriate,
     properly applied, and consistent with previous periods.

     Generally Accepted Accounting Principles on Inventory Valuation. The
     Federal Accounting Standards Advisory Board’s Statement of Federal Financial
     Accounting Standards No. 3, “Accounting for Inventory and Related Property,”
     October 27, 1993, provides the generally accepted accounting principles on
     inventory valuation for Federal Government agencies. The policy requires that
     inventories be valued on the financial statements at historic cost or at LAC
     adjusted to estimate historic cost. Cost shall include all appropriate purchase,
     transportation, and production costs incurred to bring items to their current
     condition and location. The LAC method provides that the last invoice price, that
     is, the specific item’s actual cost used in setting the current year stabilized
     standard (sales) price, be applied to all like units including those units acquired
     through donation or non-monetary exchange. LAC must be adjusted to
     approximate historic cost. The approximation is accomplished by establishing
     “allowance accounts” to capture unrealized gains and losses from changes to the
     inventory value occurring throughout the year and using the allowance accounts
     at least annually to revalue ending inventories and cost of goods sold.

     DoD Inventory Valuation Policy. The DoD policy for inventory valuation is
     established in DoD Regulation 7000.14-R, the “DoD Financial Management
     Regulation,” volume 11B, “Reimbursable Operations, Policy, and Procedures –
     Working Capital Funds,” December 1994. DoD policy requires inventories to be
     reported on the financial statements at LAC in accordance with generally



                                          2
    accepted accounting principles. The DoD policy also provides instructions for
    adjusting LAC to approximate historic cost.

    The Office of the Under Secretary of Defense (Comptroller) issued a Policy
    Letter, “Approved Valuation Method for Inventory Held for Sale and Operating
    Materials and Supplies,” July 6, 2001, requiring use of the “moving average cost
    method” of valuing inventory for all DoD Components. The moving average cost
    method is an acceptable historic cost inventory valuation method described in
    generally accepted accounting principles. However, the policy letter
    acknowledges that DoD legacy systems were not designed to maintain historic
    cost valuation for inventory held for sale. Therefore, DoD Components can
    continue to apply the existing LAC inventory valuation method until their systems
    are modified or replaced to account for inventory at historic cost.

    DoD Inventory Pricing Policy. DoD Regulation 7000.14-R, volume 2A,
    “Budget Formulation and Presentation,” June 2000, requires inventory items to be
    “price stabilized” which means that all items are priced once and that price
    remains constant throughout the fiscal year. This stabilized price is known as the
    standard price, which is composed of LAC plus a CRR.



Navy Inventory Valuation Process
    The NAVSUP inventory revaluation process resulted in an estimated LAC that
    was used to value inventories at the end of each reporting period. However,
    generally accepted accounting principles require that inventory be valued using
    the actual last invoice price, that is, the specific item’s actual cost used in setting
    the current year stabilized standard (sales) price. The estimated LAC computed
    by NAVSUP differed materially from the actual LAC NAVICP incurred to
    acquire the items in the sample of items we randomly selected.
    NAVICP Standard Price Calculation. The Navy WCF values inventory at
    standard price in its logistical and financial systems for day-to-day operations.
    The standard price of an item should represent LAC plus the applicable CRR.
    NAVICP calculated the FY 2001 Navy WCF standard prices during its annual
    price update process, which took place between May and June of FY 2000. The
    standard prices became effective on October 1, 2001 and remained constant
    throughout the fiscal year as required by DoD stabilized pricing policy.
    NAVICP-P computed standard prices for aviation-related consumable and
    repairable items. NAVICP-M computed standard prices for shipboard-related
    consumable and repairable items.

    The NAVICP pricing system was designed to capture the most recent cost to
    procure an item, or LAC. During the annual pricing update process, the LAC was
    extracted for each item and combined with the upcoming year's CRR to arrive at
    the standard price for the upcoming fiscal year. A separate CRR was established
    by NAVSUP at the Navy Budget Project level. Budget Projects are two-position
    numerical codes that identify specific categories of Navy consumable and
    reparable stock account material held for sale at Navy stock points or contractor


                                           3
facilities. Consumable items are items of supply (except explosive ordinance and
major end items of equipment) that are normally expended or used up beyond
recovery in the use for which they were designed or intended. Reparable items
are items of supply subject to economic repair and for which repair (at either
depot or field level) is considered in satisfying requirements. The Navy Budget
Projects included in our review are listed in Table 1.

                    Table 1. Navy Budget Projects Reviewed
  Budget Project               Description                        Manager
       14                 Shipboard Consumables                  NAVICP-M
       34                 Aviation Consumables                   NAVICP-P
       81                 Shipboard Reparables                   NAVICP-M
         85               Aviation Reparables                    NAVICP-P


For purposes of the FY 2001 annual price update, NAVSUP provided NAVICP
with a separate CRR, expressed as percentages, for each Navy Budget Project
(See “NAVSUP Rates” in Table 2). NAVSUP also provided NAVICP with
separate “price change targets” for each Budget Project. The price change target
was a percentage by which the current year’s standard-priced inventory value
(annual demand times standard price) must change from the prior year. NAVICP
focused on the price change target during its annual price update. Additionally,
NAVICP used a “variable pricing” methodology during its standard pricing
process. Variable pricing required the establishment of pricing tiers within each
Budget Project and resulted in the use of a multi-stage process when applying the
CRR. Therefore, NAVICP changed the CRR provided by NAVSUP to meet the
price change target. NAVSUP did not use the NAVICP-adjusted CRR in the end
of period revaluation process (See Appendix B for additional details on the
NAVICP pricing process).

NAVSUP Inventory Revaluation Process. At the end of each financial
reporting period, NAVSUP processed journal vouchers in the Central Database
system to revalue the standard-priced inventory that NAVICP calculated to an
estimated LAC. This revaluation process is performed at the Budget Project level
through the use of a spreadsheet model. Specifically, the standard-priced
inventory values for each Budget Project are revalued to an estimated LAC by the
removal of the original CRR that NAVSUP calculated for the Presidential budget
submission and provided to the NAVICP for use in the annual price update.
However, NAVSUP did not establish procedures to account for the changes that
NAVICP made to the CRR. Therefore, the NAVSUP revaluation process
conflicted with generally accepted accounting principles, which require that the
actual last invoice price, that is, the specific item’s actual cost used in setting the
current year stabilized standard (sales) price, be applied to all like units.
NAVSUP continued to use their revaluation methodology for FY 2002 end-of-
period financial reporting (See Appendix B for additional details on the
NAVSUP revaluation process).




                                       4
Cost Recovery Rate Variances
           The CRR that NAVSUP used to revalue inventory from standard price to LAC
           did not reflect the CRR that NAVICP used to price the inventory. The CRR used
           by NAVSUP was the CRR presented in the President’s budget. While the
           NAVSUP CRR was consistent with budgetary figures, it did not remain consistent
           with the NAVICP CRR used in computing the standard price during the annual
           price update. This occurred because NAVICP adjusted the CRR originally
           provided by NAVSUP in order to meet the price change target. However,
           NAVSUP did not use the adjusted CRR in their end of period revaluation process.
           Because the CRR used by NAVSUP was not the same as that used by NAVICP to
           calculate standard price, it is impossible for NAVSUP to revalue the inventory
           back to its actual LAC.

           As part of our evaluation of the internal controls over the valuation of Navy WCF
           inventory, we reviewed the financially reported LAC for 90 NAVICP-managed
           items. The 90 items consisted of individual national stock numbers randomly
           sampled at two NAVICP sites (NAVICP-M and NAVICP-P). The sample results
           showed that there was a material difference between the actual LAC that
           NAVICP used to price the item and the revalued or “estimated” LAC that
           NAVSUP calculated using its spreadsheet model. Table 2 illustrates the variance
           between the CRR removed by NAVSUP and the CRR that NAVICP had added.
           The variance ranged from a positive 9.93 percent to a negative 21.87 percent.



                      Table 2. Variance in FY 2001 NAVICP and NAVSUP CRR
          Budget Project        No. Items        NAVICP CRR1             NAVSUP CRR            Variance2
               14                  19               58.23                   48.30                 9.93
               34                  19               38.28                   48.10                (9.82)
               81                  26               58.63                   80.50               (21.87)
               85                  26               44.44                   59.50               (15.06)


           The following examples show the impact of the CRR variances on individual
           items.

           One sample item we reviewed was a signal data converter (national stock number
           5895-01-352-4749) that NAVICP-P managed. In order to compute the standard

1
    The NAVICP CRR represents the average difference between the NAVICP standard price and the base
    replacement price, or LAC, for all audit sample items within a given budget project.
2
    This variance represents the overall difference between the CRR removed by NAVSUP and the average
    CRR added by NAVICP for all sample items reviewed. We calculated a separate variance based on the
    extended inventory dollar value for each sample item in order to statistically evaluate the results.



                                                     5
           or sales price of $50,060, NAVICP-P applied a CRR of 16.42 percent3 to a LAC
           of $43,000. However, when NAVSUP attempted to revalue the item back to
           LAC, it removed a CRR of 59.50 percent from the standard price. This resulted
           in an estimated LAC of $31,386, which understated the actual LAC by $11,614
           (27.01 percent).

           Another sample item we reviewed was a desuperheater assembly (national stock
           number 4410-00-841-7006) that NAVICP-M managed. In order to compute the
           standard or sales price of $154,801, NAVICP-M applied a CRR of 58.58 percent4
           to a LAC of $97,620. However, when NAVSUP attempted to revalue the item to
           LAC, it removed a CRR of 80.50 percent from the standard price. This resulted
           in an estimated LAC of $85,762, which understated the actual LAC by $11,858
           (12.15 percent).



Impact on End of Period Reporting
           As a result of the NAVICP and NAVSUP CRR variances, we estimate that Navy
           WCF wholesale serviceable condition inventory was misstated by an estimated
           $497 million for the period ending March 31, 2001 (See Appendix A for details
           on the statistical sampling results). The $497 million misstatement represented
           approximately 5 percent of the $9.9 billion total serviceable condition inventory
           value.

           Additionally, NAVSUP provided revised CRR data showing that total5 wholesale
           inventories were misstated by approximately $668 million for the period ending
           September 30, 2001. We briefed our audit results to NAVSUP officials in
           July 2002. Subsequent to our briefing, NAVSUP officials provided a revised
           CRR that they believed more accurately reflected the CRR that NAVICP added to
           the LAC inventories during the FY 2001 standard price development. NAVSUP
           officials indicated that they could further refine the CRR by developing a multi-
           stage revaluation process similar to the process that NAVICP used to develop the
           standard prices. The revised CRR provided by NAVSUP still differed materially
           from the CRR that NAVICP added to our random sample items during the
           standard price development. Table 3 illustrates the variance between the


3
    The 16.42% CRR was a calculated composite rate, which is the difference between the NAVICP-
    calculated standard price and the base replacement price, or LAC. NAVICP used a multi-stage process to
    develop the standard price as described in Appendix B.
4
    The 58.58% CRR was a calculated composite rate, which is the difference between the NAVICP-
    calculated standard price and the base replacement price, or LAC. NAVICP used a multi-stage process to
    develop the standard price as described in Appendix B.
5
    Total wholesale inventories include both serviceable (ready for issue) and unserviceable (not ready for
    issue) items. Our statistical estimates only applied to the value of serviceable items because our sample
    population excluded unserviceable items. However, NAVSUP uses the same methodology to revalue
    serviceable and unserviceable items from standard price to LAC.



                                                        6
    NAVSUP-revised CRR and the CRR that NAVICP added to our random sample
    items during the standard price development.

         Table 3. Variance in FY 2001 NAVICP and NAVSUP-Revised CRR
     Budget Project      No. Items       NAVICP CRR        NAVSUP CRR          Variance
          14                19              58.23             43.90              14.33
          34                19              38.28             48.30             (10.02)
          81                26              58.63             74.60            (15.97)
          85                26              44.44             54.40              (9.96)


    NAVSUP officials re-performed their inventory revaluation process for the period
    ending September 30, 2001 using the revised CRR. The results showed that total
    wholesale inventories were misstated by approximately $668 million. We believe
    that the actual misstatement is significantly greater than $668 million because the
    NAVSUP-revised CRR still varied materially from the actual rates NAVICP used
    during the standard price development.

    NAVSUP also uses its revaluation process to calculate the LAC inventory value
    provided annually to the office of the Under Secretary of Defense for Acquisition
    and Technology for input to the DoD SSIR. The DoD SSIR is an annual
    publication that provides summary statistics on the status of DoD supply system
    inventories. The report summarizes, by dollar value, inventories categorized by
    DoD Component. Inventories are presented on the DoD SSIR at LAC.
    Therefore, deficiencies in the NAVSUP revaluation process also impact the
    accuracy of the LAC inventory value presented on the SSIR.



Conclusion
    NAVSUP needs to value inventory at its actual LAC as required by generally
    accepted accounting principles. Ideally, this should be accomplished by using the
    specific actual item costs that served as a basis for setting the current year
    stabilized standard (sales) prices to arrive at the extended inventory value for end-
    of-period financial reporting purposes. Until the Navy automated systems can be
    modified to report the LAC inventory value on a transaction basis, a program
    could be developed that calculates the LAC inventory value on an aggregate basis
    at the Budget Project level. Data fields are resident in the Navy automated
    systems containing the LAC for each individual item. Specifically, a replacement
    price field is available containing the last cost Navy incurred to procure each item.
    A program could be developed that calculates the LAC inventory value by using
    the on-hand quantity and the replacement price for each item. The LAC inventory
    values could be compared to the standard price inventory values to develop the
    CRR for the NAVSUP revaluation process. Another method would involve
    correcting the differences between the percentages NAVSUP used to revalue


                                         7
    inventory and the percentages NAVICP used to calculate standard price.
    NAVSUP could correct the revaluation errors by modifying the NAVICP pricing
    system to calculate an average CRR for each Budget Project. This CRR could be
    calculated for each item based on the difference between standard price and LAC.
    This average CRR would more likely represent the actual percentages that
    NAVICP added to each item and could be used by NAVSUP for the end-of-
    period revaluation process. Navy management is responsible for ensuring that
    whatever method is used results in a calculated LAC inventory value that does not
    differ materially from the actual LAC inventory value.

    We recognize that the Under Secretary of Defense (Comptroller) has issued
    policy stating that the DoD will transition to the moving average cost inventory
    valuation methodology. However, until the Navy fully implements the moving
    average cost method, the dollar value for aviation and shipboard inventory cannot
    be relied on unless the deficiencies noted in this report are corrected.



Recommendations and Management Comments
    We recommend that the Commander, Naval Supply Systems Command,
    value inventories at their latest acquisition cost for end-of-period reporting
    purposes. This should be accomplished by:

           •   using the specific actual item costs that served as a basis for setting
               the current year stabilized standard (sales) prices, or

           •   modifying the end-of-period revaluation process to ensure that the
               cost recovery rates used by the Naval Supply Systems Command
               to revalue inventory from standard price to latest acquisition cost
               are consistent with the cost recovery rates added by the Naval
               Inventory Control Point during initial item pricing.
    Management Comments. The Director of Financial Operations, Assistant
    Secretary of the Navy (Financial Management and Comptroller) concurred. The
    Director stated that Naval Supply Systems Command would seek Assistant
    Secretary of the Navy (Financial Management & Comptroller) and Defense
    Finance and Accounting Service approval to use actual Cost Recovery Rates for
    revaluing inventory for financial statement and Supply System Inventory Report
    purposes. This action will produce a more accurate revaluation of inventory until
    Naval Supply Systems Command can implement Moving Average Cost at the
    individual item level. See further comments on the Management Control Program
    in Appendix A.




                                        8
Appendix A. Scope and Methodology
   We performed this audit as part of the requirements of Public Law 101-576, the
   “Chief Financial Officers Act of 1990,” November 15, 1990, as amended by
   Public Law 103-356, the “Federal Financial Management Act of 1994,”
   October 13, 1994. For this part of the audit, we limited the scope of our review to
   verifying the NAVSUP process for revaluing inventory from standard price to
   LAC for end of period financial reporting.

   We performed the audit at NAVSUP, NAVICP-M, and NAVICP-P. We analyzed
   the financially reported inventory values for random samples of 45 items each at
   NAVICP-M and NAVICP-P. We determined whether the NAVSUP-revalued
   LAC accurately reflected the actual LAC incurred to acquire the inventory. As
   part of our audit, we reviewed the following inventory-related documents.

          •   generally accepted accounting principles, DoD financial management
              regulations, and Navy procedures and policies on pricing, valuing and
              reporting inventories

          •   pricing data for each applicable item from the Standard Pricing
              Application of the Navy Uniform Inventory Control Program System

          •   Navy Supply Information Systems Activity (formerly the Navy Fleet
              Material Support Office) documents describing the Standard Pricing
              Application

   We performed this audit from April 2001 through August 2002 in accordance
   with generally accepted government auditing standards.

   Our audit work was limited to determining whether the process that NAVSUP
   used to revalue inventory from standard price to LAC complied with generally
   accepted accounting principles. We did not assess the reasonableness of the
   NAVSUP CRR rates or the NAVICP Central Secondary Item Stratification
   (CSIS) process. Additionally, the Navy Supply Management Activity Group
   includes Supply Management (Navy) and Supply Management Marine Corps.
   This audit did not include a review of the Marine Corps portion of the reported
   inventory.

   We reviewed generally accepted accounting principles, DoD and Navy policies
   and procedures for valuing inventories. We also interviewed various NAVSUP
   and NAVICP personnel involved in the inventory valuation process. We gained a
   detailed understanding of the NAVICP process for developing standard prices.
   Additionally, we gained a detailed understanding of the NAVSUP process for
   revaluing standard-priced inventories to an estimated LAC for end-of-period
   reporting purposes.

   We performed a review of the LAC used as a basis for the standard price for
   90 NAVICP-managed items. We analyzed the NAVSUP revaluation
   spreadsheets to gain an understanding of the methodology used to revalue the


                                        9
inventory items to LAC. For each of the 90 items, we obtained the replacement
price that NAVICP used as a basis for the standard price calculation during the
FY 2001 annual price update. The replacement price used for the annual price
update represents the NAVICP LAC. We obtained the CRR that NAVSUP
calculated and used in the inventory revaluation process for FY 2001 financial
reporting. We also obtained the CRR that NAVICP used to compute the standard
price for the items. We compared the LAC that NAVSUP calculated during its
revaluation process to the actual LAC used by NAVICP in the standard price
calculation to determine if there was a material difference. We provided our
random sample results to the Quantitative Methods Division of the Office of the
Assistant Inspector General for Auditing for review and analysis. The
Quantitative Methods Division provided assistance in determining the impact of
the valuation deficiencies on the sample universe.

The universe consisted of 183,381 inventory records containing serviceable on-
hand assets in the NAVICP CSIS as of March 31, 2001. Records were combined
into two locations, NAVICP-P and NAVICP-M. We randomly selected
45 aviation-related inventory items managed by NAVICP-P and 45 shipboard-
related inventory items managed by NAVICP-M. We selected the minimum
sample size of 45 items at each NAVICP in accordance with General Accounting
Office Financial Audit Manual guidance. With a minimum sample size of
45 items at each NAVICP, the acceptable number of deviations (errors) was zero.
Although NAVICP-M and NAVICP-P used the same financial management
system, we treated them as separate entities due to the lack of prior audit work in
the area of inventory valuation.

                                   Sampling Design

                              Sample           Population
       Stratum                Size             Size

       BP 14                  19              60,094
       BP 81                  26              64,127
        NAVICP-M              45             124,221

       BP 34                  19               23,276
       BP 85                  26               35,884
        NAVICP-P              45               59,160

       Total Sample           90             183,381



Sample Results. The results of our random samples were used to derive
statistical estimates of dollar value misstatement of the $9.9 billion NAVSUP
serviceable condition inventory for the period ending March 31, 2001. We are
95 percent confident the total misstatement is between $165,623,399 and
$828,005,013.




                                      10
                              95 Percent Confidence Interval

               Lower Bound           Point Estimate            Upper Bound

               $165,623,399           $496,814,206             $828,005,013



    Use of Computer-Processed Data. To achieve the audit objective, we relied on
    computer-processed data from the Navy Uniform Inventory Control Program
    system. We did not test the general and application controls of the Navy Uniform
    Inventory Control Program system. We concluded that the data was sufficiently
    reliable to meet the audit objective, which was to evaluate the NAVSUP process
    of revaluing inventory from standard price to LAC.

    Use of Technical Assistance. The Inspector General, DoD, Quantitative
    Methods Division provided assistance on evaluating the random sample results.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Financial Management and Defense Inventory Management high-risk areas.



Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operated as intended and to evaluate the adequacy of the controls.
    Scope of the Review of the Management Control Program. We reviewed the
    FY 2000 and FY 2001 Annual Statement of Assurance issued by NAVSUP to
    determine whether the issues addressed in this report had been reported as
    material management control weaknesses.

    Adequacy of Management Controls. We identified a material management
    control weakness, as defined by DoD Instruction 5010.40, related to the valuation
    of Navy inventory. The details of the management control weaknesses are
    provided in detail in the Finding section of this report. The recommendation in
    this report, if implemented, will improve the accuracy and reliability of Navy
    WCF inventory valuation. A copy of the report will be provided to the senior
    NAVSUP official responsible for management controls.

    Adequacy of Management’s Self-Evaluation. The FY 2000 and FY 2001
    NAVSUP Annual Statement of Assurance did not identify any material control
    weakness related to the valuation of Navy WCF inventory. Management did not
    identify inventory valuation as an assessable unit.


                                        11
Management Comments on the Management Control Program
 and Audit Response
    Management Comments. The Director of Financial Operations, Assistant
    Secretary of the Navy (Financial Management and Comptroller), non-concurred
    with our conclusion regarding the adequacy of management’s self-evaluation.
    The Director stated that the objective of an assessable unit is to provide
    reasonable assurance that resources allocated to the activity are adequately
    safeguarded against waste, fraud or mismanagement. The Director further stated
    that the method of valuing Navy Working Capital Fund inventory is a result of
    policy and not a material weakness, and therefore should not be included as an
    assessable unit.

    Audit Response. Management Control weaknesses should be reported if they are
    deemed material. The deficiencies in the Naval Supply Systems Command
    inventory valuation process identified in this report materially affect the accuracy
    of the inventory amounts presented on end-of-period financial and logistical
    reports. Inventory valuation affects two Management Control reporting
    categories, Supply Operations and Comptroller and/or Resource Management.
    Department of Defense Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, defines Management Control as a system
    of guidance, instructions, regulations, procedures, rules or other organization
    instructions intended to determine the methods to be employed to carry out
    mission or operational actions or objectives, and ensure that programs achieve
    intended results. The instruction defines an assessable unit as any organizational,
    functional, programmatic, or other applicable subdivision, capable of being
    evaluated by Management Control assessment procedure. Each Department of
    Defense Component is required to identify, report, and correct material
    Management Control weaknesses.

Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD) has issued two reports related to Navy Inventory Revaluation.
    Unrestricted IG DoD reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.

IG DoD

    IG DoD Audit Report No. D-2001-022, “Inventory Revaluation for the Navy
    Working Capital Fund by the Naval Supply Systems Command,” December 18,
    2000.

    IG DoD Audit Report No. D-2000-177, “Revaluation of Inventory for the
    FY 1999 Department of the Navy Working Capital Fund Financial Statements,”
    August 18, 2000.



                                         12
Appendix B. Details on Navy Inventory Pricing
            and Valuation
           Inventory Pricing. NAVICP is responsible for establishing the standard prices
           for all Navy-managed aviation and shipboard-related consumable and reparable
           inventory items. These items are standard-priced during the annual price update
           process in accordance with NAVSUP guidance and DoD price stabilization
           policy. The annual price update occurs May through June of each fiscal year.
           NAVSUP develops the CRR by Budget Project during the open pricing year,
           which begins two fiscal years prior to the annual price update process. NAVSUP
           provides the CRR to NAVICP for development of the standard prices.

           In FY 2000 NAVICP began variable pricing, which involves discretely pricing
           items based on actual cost allocations. NAVICP uses a multi-stage process to
           calculate standard prices under its variable pricing methodology. Items are
           initially categorized by Budget Project, each having three price tiers. Each price
           tier has a separate burdening and CRR.

           NAVICP calculates standard prices to recover the costs incurred to support a
           weapons system. Some costs are directly attributable to a specific item of supply.
           However, recovery of costs that cannot be attributed to a specific item is
           calculated by describing the cost that must be recovered as a percentage of a
           community of items’ value of annual demand. This process is referred to as
           “burdening,” which is basically the application of a factor to an item’s base cost,
           in order to better describe the costs NAVICP will incur for the item and similar
           items in the same community. The CRR elements include categories of cost
           recovery required to support the wholesale supply system and other factors for
           budgetary purposes.

           At the start of the NAVICP annual pricing update, the standard pricing
           application extracts obligation history data from its price analysis file in
           preparation for the pricing process. In May of each year, NAVSUP provides the
           price change targets, initial cost recovery and burdening rates at the Budget
           Project level to NAVICP. The initial pricing of the items is performed by the
           standard pricing application. Once a base replacement price, or LAC, is selected,
           the system then calculates the standard price. The standard price is calculated
           using the following formula:

                          LAC × (1 + Unique Burdening Rate*) = Cost of Material
                         Cost of Materials × (1 + Burdening Rate) = Cost of Goods

                                 Cost of Goods × (1 + CRR) = Standard Price


*
    Unique burdening rates allow NAVICP to recover costs for a limited number of specified items that
    require additional testing, identified by their Special Material Identification Code.



                                                     13
Upon completion of the initial pricing, NAVICP pricing analysts review the
accuracy of the newly computed standard prices to ensure that they were
calculated using the most recent obligations. NAVICP pricing analysts focus on
items with the highest value of annual demand, and those with the greatest change
in value of annual demand from the prior year.

After reviewing the standard prices, NAVICP reruns the pricing program to
determine if they achieved their target price change based on the value of annual
demand. The price change target represents a change in the standard price from
the prior year measured as a percentage. For example, Budget Project 14 items
will have a price 19.2 percent higher in FY 2001 than they did in FY 2000 (see
Table below for FY 2001 Price Change Targets). To determine if the price
change target is met, NAVICP uses the “value of annual demand” calculation
process. This process calculates the value of annual demand for the entire priced
inventory universe at the current and new standard price. The CRR is then
adjusted by NAVICP until the target price change is met.

                     FY 2001 Price Change Targets
            Budget Project     Price Change Target (Percent)
                 14                        19.2
                 34                        18.5
                 81                        18.8
                 85                        14.3


During the annual price update, NAVICP performs several reviews of the
accuracy of standard price changes. Additionally, NAVSUP performs an on-site
review of selective items with a high value of annual demand to ensure that they
were accurately priced. Upon completion of the annual price update, the new
standard prices are sent to the Defense Logistics Information Service in mid-July.
The new standard prices become effective on October first of the new fiscal year.

End of Period Inventory Valuation. Navy-managed consumable and repairable
aviation and shipboard inventory values are maintained in the DFAS-CL Central
Database at the NAVICP-calculated standard price. Therefore, NAVSUP must
revalue inventory from standard price to LAC to comply with generally accepted
accounting principles. For financial reporting purposes, NAVSUP uses a
spreadsheet model to accomplish the revaluation for input to both the Navy WCF
Financial Statements and the DoD SSIR.

The NAVSUP revaluation spreadsheet model uses financial data pulled from the
DFAS-CL Central Database and logistical data from the Navy CSIS file to
revalue inventory from standard price to LAC for each individual Budget Project.
The CSIS process uniformly calculates inventory requirements and associated
asset status for individual secondary items and generates summaries of essential
information to provide the foundation for developing secondary item procurement
and repair budgets and the DoD SSIR. The CSIS is performed as of March 31
and September 30 each year. The March 31 CSIS results are used to revalue


                                    14
inventory at the end of each month from June through November (including the
September month-ending inventory used in preparation of the annual financial
statements). The September 30 CSIS results are used to revalue inventory at the
end of each month from December through May. There is approximately a three-
month delay in the finalization of the CSIS results because the process is complex
and time consuming (i.e. the March 31 results are not available for use until June).
The NAVSUP spreadsheet model stratifies inventory values as Approved Force
Acquisition Objective, War Reserves, Economic Retention Stock, Contingency
Retention Stock, Potential Excess Stock, and Disposable Excess. The Navy CSIS
attributes percentages of the inventory dollar value to all of the inventory
categories.

NAVSUP personnel pull logistical information from the CSIS into their
revaluation spreadsheets. These standard-priced values are used to calculate the
LAC by removing the CRR that NAVSUP had originally calculated and provided
to NAVICP for the specific Budget Projects. The CRR used by NAVSUP to
revalue inventory from standard price to a LAC is also the CRR presented in the
President’s budget. The spreadsheet calculates LAC using the following formula:

Standard Price Inventory Value ÷ (1 + CRR) = LAC Inventory Value

To calculate the amount of the surcharge removed, the inventory value at LAC is
subtracted from the inventory value at standard price and the difference is the
value of the CRR. The end result of the revaluation spreadsheets is the
calculation of journal voucher values that are processed into the DFAS-CL
Central Database. These journal voucher values decrease the financial inventory
value from standard price to LAC. Additional journal vouchers are processed to
remove the cost of repair, and to remove the salvage cost of items stratified as
potential or disposal excess. NAVSUP also uses the CSIS data and financial
inventory data from the Central Database as of September 30 to revalue inventory
for input to the DoD SSIR.




                                    15
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Supply Systems Command
 Commander, Naval Inventory Control Point

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          17
Department of the Navy
Comments




                     19
20
21
Team Members
The Defense Financial Auditing Service Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
James L. Kornides
Amy J. Frontz
Anthony C. Hans
Brian M. Stumpo
Lusk F. Penn
Catherine Bird
